 CONSUMER ASSISTANCE TO RECYCLE AND
SAVE PROGRAM: MOST TRANSACTIONS MET
 PROGRAM REQUIREMENTS, BUT PROGRAM
    COMPLETION ACTIVITIES CONTINUE

   National Highway Traffic Safety Administration

           Report Number: MH-2010-054
            Date Issued: April 29, 2010
           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Consumer Assistance to Recycle and               Date:    April 29, 2010
           Save Program: Most Transactions Met Program
           Requirements, But Program Completion Activities
           Continue
           National Highway Traffic Safety Administration
           Report No. MH-2010-054

  From:                                                          Reply to
                                                                 Attn. of:   JA-40
           Joseph W. Comé
           Assistant Inspector General
             for Surface and Maritime Program Audits

    To:    National Highway Traffic Safety Administrator

           The Consumer Assistance to Recycle and Save (CARS) Act of 2009 1 required the
           National Highway Traffic Safety Administration (NHTSA) to establish and
           administer a program that would encourage consumers to trade in their vehicles
           for new, more fuel-efficient vehicles. The primary objectives of the program were
           to stimulate the economy and promote sales of vehicles with higher fuel economy.
           The CARS Act established an aggressive schedule for NHTSA to implement this
           complex program, and 12 days into implementation, Congress tripled program
           funding from $1 billion to $3 billion. 2 After 1 month, dealers requested payment
           for over 690,000 vehicle sales, nearly exhausting program funds.

           To provide oversight of this high risk program, Congress required the Government
           Accountability Office (GAO) and the Department of Transportation (DOT) Office
           of Inspector General (OIG) to review and report on the administration of the
           program. In August 2009, Senator Charles Grassley also expressed concerns to
           OIG about NHTSA’s ability to ensure program integrity. In response to
           congressional interest, we (1) examined the effectiveness of NHTSA’s controls to
           ensure that CARS transactions met Federal requirements; (2) identified challenges
           NHTSA faced in implementing the program; and (3) assessed NHTSA’s progress
           in closing out the program, including evaluating compliance and accounting for

           1
               Public Law 111-32.
           2
               Public Law 111-47.
                                                                                                                          2


total program costs. GAO’s report, also being issued today, examines the extent
that the CARS program achieved its objectives, stakeholders’ experiences, and
other domestic and international vehicle retirement programs. 3

To conduct our work, we interviewed NHTSA and other DOT officials and
reviewed relevant agency documents. We also conducted site visits and
interviews at automobile dealerships and vehicle disposal facilities 4 across the
country related to a statistical sample of 393 CARS transactions as of October 9,
2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. See details on our scope and
methodology in exhibit A.


RESULTS IN BRIEF
While NHTSA’s controls ensured that most CARS transactions met basic program
eligibility requirements—such as fuel efficiency, ownership, and insurance—
controls related to trade-in vehicle disposal are less effective. Based on our
statistical sample, we project that the majority of transactions, almost 97 percent,
met basic eligibility requirements and 3 percent of CARS transactions lacked at
least some supporting documentation. These unsupported transactions could result
in improper payments to dealers totaling almost $94 million of the $2.83 billion
approved for payment at the time of our audit. Some of these transactions might
ultimately prove to meet program requirements with additional documentation, but
did not based on information in the CARS database as of October 9, 2009. 5
NHTSA achieved this high rate of compliance by establishing transaction controls,
including a two-level manual review and approval of each payment and automated
checks to prevent duplicate payments. NHTSA also required dealers to certify
that they would disable trade-in vehicle engines to prevent resale. However, one
of the main controls related to the trade-in vehicles’ final disposal—the
Department of Justice’s National Motor Vehicle Title Information System
(NMVTIS)—cannot be relied on to confirm the final status of trade-in vehicles.
Fewer than half of the states fully use the system. Further, some disposal facilities

3
    GAO's report is available on its website: http://www.gao.gov/new.items/d10486.pdf.
4
    In this report, disposal facilities refers to salvage entities, which sell automotive parts for reuse, or scrap entities,
    which shred vehicles and separate the remaining materials for reuse. For the CARS program, NHTSA created a list
    on www.cars.gov/disposal of facilities eligible to receive trade-in vehicles for crushing or shredding.
5
    Our estimates are based on an analysis of transactions with a paid or ready-for-payment status in the CARS
    transaction database on October 9, 2009. We are 95 percent confident that the precision of our estimate does not
    exceed ±1.7 percentage points.
                                                                                  3


have not reported to NHTSA or NMVTIS on the receipt and destruction of trade-
in vehicles, as required. To compensate for weaknesses in NMVTIS, NHTSA
shared the CARS trade-in vehicle identification numbers (VINs) with commercial
car history vendors, increasing the opportunities to alert consumers to potentially
fraudulent vehicle sales.

Immediate consumer response and the infusion of additional program dollars
presented significant challenges to NHTSA’s implementation of the CARS
program. With limited time to plan and prepare for CARS implementation,
NHTSA based program decisions on certain assumptions that proved to be
incorrect. For example, in determining staffing levels needed to process
transactions, NHTSA assumed dealer requests for payment would occur at a
constant rate of 3,000 per day. In the first 10 days, however, NHTSA received
more than 224,000 requests—more than 7 times what it expected. NHTSA also
assumed that most initial payment requests would have the required data for
approval.    Instead, most were rejected due to insufficient or inaccurate
information, requiring dealers to resubmit requests with the deficiencies corrected.
The high volume of requests also exposed certain weaknesses in the information
technology (IT) system used to process transactions. With just 30 days to roll out
a CARS IT system, NHTSA deferred completion of some standard development
practices—including assessing risks, such as the need for software changes, and
testing the system. Congress’ tripling of CARS funding further burdened
NHTSA’s already overwhelmed processing capacity and IT system.

NHTSA has begun to take action to evaluate program compliance and to
determine total program costs—two major activities remaining to close out the
CARS program. As of February 2010, about 15 percent of the more than 2,900
transactions identified for evaluation had been initiated or closed, and 20
individual cases were being prepared for civil penalties. Also, almost $4 million
had been returned as a result of these evaluations or voluntary dealer repayments.
However, at the time of our audit, NHTSA did not have a comprehensive plan that
identified the level of effort, scope, and timing of these and other close-out
activities, including identifying total program costs. Total program costs remain
unknown, in part because close-out activities—such as determining the cost of
tracking trade-in vehicle disposal certificates and archiving program data—are
ongoing. In addition, NHTSA is still determining the award fee on one of CARS’s
biggest contracts. Implementing a comprehensive plan would help NHTSA more
efficiently carry out these remaining close-out activities and better inform the
Secretary of Transportation and Congress of its progress and overall program
performance.

We are recommending that NHTSA leverage lessons learned to further improve
DOT’s and the Federal Government’s ability to respond to future vehicle
                                                                                   4


retirement or other short-term programs, and to finalize and implement a
comprehensive action plan to ensure efficient close out of the CARS program. In
responding to a draft of this report, NHTSA concurred with our recommendations
and provided a description of the actions it took to address the many challenges in
implementing the program under tight deadlines. NHTSA's response also
describes actions it plans to implement to complete the program. A complete
discussion of NHTSA’s comments to our draft report and our response begins on
page 18.


BACKGROUND
On June 24, 2009, the President signed the CARS Act to establish a $1 billion
temporary program to stimulate the economy and encourage consumers to
purchase fuel-efficient vehicles. The CARS Act permitted participating dealers to
request payment from NHTSA for credits they extended to consumers for eligible
vehicle sales that occurred between July 1, 2009, and November 1, 2009, or until
all funds were expended.         When consumers traded in eligible vehicles,
participating dealers provided a $3,500 or $4,500 credit, depending on the increase
in fuel efficiency, to help consumers buy or lease new, more fuel-efficient, eligible
vehicles. Exhibit B provides details about the eligibility requirements.

The CARS Act required NHTSA to issue a final rule and begin implementing the
program within 30 days of enactment. NHTSA issued the final rule on July 23,
2009, and began accepting dealer requests for payment on July 27, 2009. The rule
established eligibility requirements and payment procedures. To request payment
from NHTSA, dealers created invoices by submitting consumer trade-in-vehicle
and new vehicle information to the CARS transaction database. They also
submitted a minimum of eight supporting documents, including consumer
identification and proof of ownership, insurance, and registration for the trade-in
vehicle. After NHTSA paid the invoice, the dealer had to disable the trade-in
vehicle engine and transfer the vehicle to an eligible disposal facility. The
disposal facility then had 7 days to report receipt of the trade-in vehicle to the
Department of Justice’s NMVTIS. The disposal facility had up to 270 days to
crush or shred the vehicle. Parts of the vehicle other than the engine block and
drive train may be sold prior to disposal. Finally, the disposal facility had 7 more
days to report the final destruction to NMVTIS. Figure 1 below provides a
general overview of the CARS process.
                                                                                                                    5




Figure 1: Significant Steps in the CARS Process




* A dealer can also transfer the trade-in vehicle to a salvage auction that reports to NMVTIS within 3 days, transfers
  the vehicle to a disposal facility within 7 days, and submits a form to NHTSA.

Source: OIG



On August 7, 2009, Congress provided $2 billion in supplemental appropriations
to continue the CARS program and increase its total funding to $3 billion. On
August 25, 2009, DOT stopped accepting dealer requests for payment. By
September 30, 2009, NHTSA had reviewed 99 percent of them and paid dealers a
total of $2.83 billion.


MOST CARS TRANSACTIONS MET FEDERAL REQUIREMENTS,
BUT CONTROLS RELATED TO TRADE-IN VEHICLE DISPOSAL
ARE LESS EFFECTIVE
NHTSA program controls ensured that most transactions met the CARS eligibility
and fraud prevention requirements. However, controls related to trade-in vehicle
disposal are less effective, making it difficult to verify the vehicles’ final
destruction. NHTSA also lacked effective controls to monitor transaction activity
early in the program and to ensure the integrity of transaction data. With limited
visibility on the volume and pace of CARS transactions occurring at dealerships,
                                                                                                               6


NHTSA risked having to deny an estimated $380 million in potentially eligible
claims. (Exhibit C provides details about how we determined sample eligibility.)


Transaction Controls Were Generally Effective
NHTSA used several controls to help ensure that transactions met Federal
requirements before approving dealer payment requests. First, reviewers used a
standard checklist to determine whether dealers provided accurate information and
supporting documentation. This review was conducted twice for each request.
Further, NHTSA built edit checks into the IT system to screen for invalid
transactions. For example, some controls were designed to ensure that:
• each trade-in VIN was unique to prevent more than one payment for the same
  VIN,
• each purchaser’s identification was unique to prevent the same individual from
  obtaining more than one credit, and
• the purchase date of the new vehicle was July 1, 2009, or later.

Our statistical sample indicates that these controls ensured that 96.7 percent of
CARS transactions met program requirements, while 3.3 percent did not. Some of
these transactions might ultimately prove to meet program requirements with
additional documentation, but did not based on information in the CARS database
as of October 9, 2009. 6 Based on the 3.3 percent, we project that almost 22,000
transactions lacked supporting documentation, such as proof of insurance, in the
CARS database at the time of our audit to meet program requirements. The total
value of these transactions could equal almost $94 million of the $2.83 billion
approved for payment at the time of our audit (see table 1). Under the Improper
Payments Information Act, 7 permanent government programs with improper
payments that exceed $10 million or 2.5 percent of program payments trigger
Office of Management and Budget reporting requirements for high-risk programs.
We advised NHTSA of the unsupported transactions that we found, which should
help it determine whether to pursue repayments or additional documentation.




6
    We determined whether transactions had sufficient support using NHTSA’s September 7, 2009, transaction review
    checklist, which specifies which documents are acceptable evidence.
7
    Public Law 107-300.
                                                                                                                      7




Table 1: Projected Unsupported CARS Transactions Based on
OIG Sample*

Document Not Provided                                                   Projected                 Projected Value
                                                                Unsupported CARS
                                                                     Transactions
Proof of insurance for 1 year with no more than a
                                                                                   8,448               $36,246,240
10-day lapse in coverage
Front of Manufacturer’s Certificate of Origin                                      6,835               $29,109,824
Proof of current registration                                                      3,317               $14,925,706
Proof of purchaser identification                                                  3,317               $13,265,369
Total                                                                            21,917                $93,547,140
*    The precision of our estimates does not exceed +/-1.7 percent of invoices in the universe, with a confidence level
     of 95 percent.

Source: OIG projection based on a sample of NHTSA transaction data, as of October 9, 2009



NHTSA missed opportunities to strengthen supporting documentation
requirements and further mitigate the risk of improper payments. For example,
NHTSA did not consistently require processors to review the new vehicle
manufacturer’s certificates of origin (MCO) for all transactions. Instead, NHTSA
relied on dealer-reported information to determine whether the purchased vehicle
met the program requirement of being a new vehicle. In addition, NHTSA did not
require dealers to submit the back of the MCO signed by the consumer, which
could have provided additional assurance that a consumer did not participate in the
program more than once. 8

Some dealers had difficulty complying with the transaction controls, which
resulted in repeated submissions and reviews and slower payments to dealers. For
example, to ensure that consumers met CARS Act ownership provisions, NHTSA
required dealers to prove that the trade-in vehicles had current registration and
continuous insurance for the 12 months preceding the new vehicle purchases.
According to dealers we interviewed, dealers and consumers frequently had to
coordinate with insurance companies to obtain such evidence. Some dealers also
noted that the NHTSA requirement to submit electronic copies of documents, such
as the new vehicle sales agreement, was resource intensive and delayed some


8
    The CARS Act specifies that only one credit may be issued to a single person, and only one credit may be issued for
    joint registered owners of a single eligible trade-in vehicle.
                                                                                                                        8


payment requests. (Exhibit D provides selected dealer views about the CARS
program.)


Controls Related to Trade-in Vehicle Disposal Are Less Effective
One of the main controls related to vehicle disposal—the Department of Justice’s
NMVTIS—is not reliable for confirming the final status of trade-in vehicles
because of limited state participation. Moreover, some of the 22 disposal facilities
we visited were not following CARS requirements to report to NMVTIS on the
receipt and disposal of vehicles. As a result, NHTSA will have difficulty tracking
final disposition of trade-in vehicles.

NMVTIS was created to prevent vehicle theft and fraud by providing motor
vehicle administrators, law enforcement officials, and consumers an electronic
means to verify and exchange title, brand, 9 and other data. Specifically, states can
query NMVTIS on a real-time basis before issuing a title for an out-of-state
vehicle, and, preferably, before every title verification regardless of its origin or
reason. The Federal regulatory deadline for all states to participate fully in
NMVTIS was January 1, 2010. However, as of February 2010, only 15 states
(30 percent) were full participants. Of the states that are not full participants, 16
provide data but do not query the system, and 15 states are developing the
capabilities either to provide data or to become full participants. The remaining
states and the District of Columbia are not participating at all. The Department of
Justice cannot impose penalties for non-participation in NMVTIS. However, to
compensate for weaknesses in NMVTIS, NHTSA shared the CARS trade-in VINs
with commercial car history vendors, increasing the opportunities to alert
consumers to potentially fraudulent vehicle sales. Additionally, for a fee,
consumers can search NMVTIS for vehicle histories, including previous titling
states and odometer readings. NHTSA has also been coordinating with
U.S. Customs and Border Protection and the National Insurance Crime Bureau to
monitor vehicle exports.

We found noncompliance with trade-in vehicle controls at selected disposal
facilities. Seven (32 percent) of the 22 facilities we visited did not report to
NMVTIS as required by NHTSA. For example, one facility, which received 357
CARS vehicles at the time of our audit, was not aware of NMVTIS and therefore,
had not reported any information on the status of those vehicles. The other
facilities did not report to NMVTIS either at the time of receipt or after the
vehicles had been crushed or shredded. In addition, one facility we visited did not
sign or date the disposal certification forms for the 27 trade-in vehicles it handled.
Without signed and dated forms, NHTSA cannot determine whether the disposal

9
    Brands are distinctive labels regarding the status of a motor vehicle, such as “junk,” “salvage,” and “flood” vehicles.
    The CARS program has its own brand in NMVTIS.
                                                                                                                      9


facility complied with the requirement to crush or shred the vehicles within
270 days of taking possession.


Other Transaction Controls Were Ineffective
Although NHTSA monitored the CARS database to prevent exceeding funding,
NHTSA lacked controls to manage an orderly ramp down of the program once
funds from the initial appropriation were spent. NHTSA used a contractor to
estimate future dealer requests for payment through surveys on vehicle sales. By
the time NHTSA’s contractor delivered its first survey results on August 6, 2009,
it estimated that dealers had already completed CARS transactions worth
$1.38 billion if approved by NHTSA, which was $380 million more than the
program's original appropriation. The additional $2 billion appropriated on
August 7, 2009, allowed NHTSA to avoid an abrupt shut down of the program and
the need to deny hundreds of millions of dollars of dealer claims. NHTSA’s
contractor continued to survey dealers for the remainder of the program, providing
information to determine the timing of the program’s ultimate ramp down.

NHTSA also lacked controls to ensure the accuracy of transaction data and
compliance with some Federal and DOT policies. For example:

• NHTSA did not validate VINs before paying dealers. Our review of the
  transaction database revealed over 23,000 invalid trade-in and new VINs, most
  of which were dealer entry errors. In response to our draft report, NHTSA
  officials claimed they have corrected approximately 11,000 incorrect trade-in
  VINs, and updated NMVTIS to reflect those corrections. We have not verified
  or validated these corrections.

• NHTSA did not follow some Federal security procedures for updating and
  correcting dealer bank information, thereby creating a risk of unauthorized
  access or interception of this information. 10

• NHTSA did not comply with Federal standards to secure personally
  identifiable information (PII). Specifically, NHTSA did not encrypt PII stored
  in the CARS database.

• NHTSA did not have an IT system control to prevent errors in sales dates
  (when transactions occurred between the dealers and consumers) and invoice
  dates (when dealers created an invoice in the CARS database). Consequently,
  NHTSA’s ability to use this information to screen invalid transactions and
  report on program activity was limited.


10
     NHTSA collected, stored, and verified dealers’ bank information to enable electronic transfer of approved payments.
                                                                                  10


• NHTSA’s database contained 970 duplicate records at the time of our audit.
  According to our review, none resulted in duplicate payments.

• NHTSA did not verify stated fuel economy increases from trade-ins to new
  vehicles. Dealers were required to use fueleconomy.gov 11 to compare fuel
  efficiency ratings for each transaction. However, 29 (7 percent) of the 393
  transactions in our sample had errors related to this requirement, such as
  selecting the wrong engine size or using a manufacturer’s website instead of
  the required government one. We determined that these 29 transactions were
  eligible for the program, although one received $4,500 instead of $3,500, and
  another received $3,500 when it was eligible for $4,500.

Errors and omissions such as these require NHTSA to expend resources for
corrections and limit its data analysis in support of compliance review activities.

Finally, some fundamental contracting oversight tools were not in place during the
program, limiting NHTSA’s ability to oversee contractors that supported
transaction processing and the IT system. For example, NHTSA did not maintain
oversight files or document oversight responsibilities assigned to its staff that was
monitoring the contracts. To address these shortcomings, NHTSA conducted
monitoring activities, including daily conference calls, site visits, and e-mails. 12


RAPID SUMBISSION OF PAYMENT REQUESTS AND INCREASED
FUNDING CHALLENGED NHTSA’S IMPLEMENTATION
Consumer response to CARS presented significant program implementation
challenges for NHTSA. Because NHTSA assumed transactions would occur at a
constant rate throughout the life of the program, it was unprepared to respond to
the immediate demand. The increased volume of transactions that occurred when
Congress tripled CARS funding further burdened NHTSA’s already overwhelmed
processing capacity and IT system.


Transaction Processing Required Additional Capacity and
Modifications to Pay Dealers
With limited time to plan and prepare for CARS implementation, NHTSA based
its staffing decision on certain assumptions. These assumptions did not adequately
account for program risks, such as higher participation levels or transaction
rejection rates, and ultimately proved to be incorrect. When NHTSA began


11
     The Environmental Protection Agency sponsors this website.
12
     We did not assess the effectiveness of these monitoring activities.
                                                                                                                11


accepting dealer payment requests, its processing capacity was inadequate to
accommodate the large volume of transactions.

NHTSA assumed that the initial $1 billion program funding would support
250,000 dealer credits and that dealers would submit about 3,000 correct payment
requests per day throughout a 3-month program. NHTSA also assumed each
transaction processor would need 30 minutes to manually review, approve, or
reject each dealer request for payment. Using these assumptions, NHTSA
determined it would need 200 full-time equivalents (FTE) to process
transactions. 13

When NHTSA began processing dealer requests for payment, its processing
contractor, Citibank, had 38 FTEs available. At this staffing level, each FTE
processor would have no more than 6 minutes per transaction to complete 3,000
transaction reviews per day.

If the transaction processing function had been fully staffed at 200 FTEs, it would
have still been overwhelmed by circumstances NHTSA had not factored into its
plans.

• The number of dealer payment requests in the first days of the program greatly
  exceeded the number NHTSA expected. On the first day that NHTSA
  accepted payment requests, July 27, 2009, dealers submitted nearly 4,000
  requests. Within the first 10 days, dealers submitted more than 224,000
  payment requests, not the 30,000 for which NHTSA planned.

• According to the CARS Act, vehicle sales were eligible beginning July 1,
  2009, 26 days before NHTSA accepted the first payment request. NHTSA’s
  processing plans did not reflect this gap. According to dealer-provided data,
  NHTSA started with a backlog of over 51,000 sales. 14

• Despite guidance on requesting CARS payments available through the CARS
  website and webinars, almost 92 percent of dealer payment requests in the first
  week included incorrect or insufficient documentation. Dealers had to
  resubmit requests with corrected or additional information. By the end of the
  program, the average transaction needed more than 3 reviews and 30 days from
  the dealer’s first submission to payment. The average period from the dealer’s
  last correct submission to final payment was 16.9 days, rather than the 10 days
  required by the CARS Act.



13
     A full-time equivalent (FTE) is the basic measure of employment for budgeting purposes—total hours to be worked
     divided by the number of compensable hours in the fiscal year.
14
     NHTSA found data quality issues with dealer-reported sales dates.
                                                                                                                          12


Moreover, the $2 billion in supplemental appropriations 12 days into the program
tripled program funding and NHTSA’s workload for processing transactions. As a
result, NHTSA had a backlog of approximately 650,000 transactions when it
stopped accepting dealer requests for payment on August 25, 2009 (see figure 2).



Figure 2: Pending Dealer Payment Requests, August 2009 and
September 2009


                             700,000
                                                                    649,522
    Number of Transactions




                             600,000

                             500,000

                             400,000

                             300,000

                             200,000

                             100,000
                                                                                                             24,251
                                       99,843
                                   -
                                 Aug 1, 2009         Aug 16, 2009        Aug 31, 2009       Sep 15, 2009   Sep 30, 2009

                                               NHTSA Stops Accepting Dealer Requests for Payment




Source: OIG analysis of NHTSA data




To help reduce the backlog, NHTSA began hiring more processors in mid-August
2009. Although Citibank assigned 550 additional FTEs to CARS by September 3,
2009, Citibank alone could not address the backlog of dealer payment requests in a
timely manner. Using emergency contracting and interagency agreements,
NHTSA assembled a transaction-processing workforce of more than 7,000 Federal
Aviation Administration, Internal Revenue Service, and private vendor employees
across the country. NHTSA also used about 100 DOT employees from other
agencies for about 10 days to process transactions.

In addition, NHTSA modified its transaction review checklist 12 times. One
significant change was to relax proof of registration requirements for the trade-in
vehicles—instead of requiring dealers and consumers to prove registration for the
previous 12 months, NHTSA required proof of registration that was current at the
time of vehicle trade in and sale. NHTSA determined that a title and proof of
                                                                                                            13


1 year of insurance was sufficient to demonstrate ownership and drivability. This
change also reduced dealer and consumer frustration.

These actions and the closing of the payment request period allowed NHTSA to
clear the backlog of transactions. By the end of August 2009, NHTSA was
approving 10,000 transactions per day, and by the end of September 2009,
99 percent of the transactions had been resolved. However, some of the
modifications NHTSA made to clear the backlog negatively impacted its quality
assurance approach. Originally, each processing center was responsible for
reviewing each dealer request twice before approving it for payment, and
conducting quality assurance reviews on approved transactions. To maximize the
productivity of the expanded workforce, NHTSA continuously redistributed work
among the centers. As a result, a processing center might not perform both
reviews on an individual transaction. Therefore, transactions reviewed at separate
processing centers were not included in NHTSA’s quality assurance reviews. This
sharing of work limited NHTSA’s ability to oversee processing functions and
assess individual processing center performance.


High Volume of Transactions Exposed IT System Risks
With 30 days to develop, test, and implement an IT system to register dealers,
capture transaction information, and pay dealers, NHTSA deferred completion of
standard practices designed to mitigate certain performance and security risks.
NHTSA finished developing the IT system 1 day prior to the program launch, not
allowing time for adequate developmental testing and evaluation. NHTSA did not
complete required certification and accreditation until September 23, 2009, about
60 days after program launch and several weeks after NHTSA stopped accepting
dealer payment requests. According to National Institute of Standards and
Technology guidance and standards, the certification and accreditation process
ensures that agencies have the best information to make timely, credible, risk-
based decisions about authorizing operation of Federal IT systems. Until testing
and certification requirements could be completed, NHTSA granted conditional
authority to operate the system. However, DOT policy does not recognize such
authority. 15

Immediately after launching dealer registration on July 24, 2009, NHTSA’s IT
system experienced performance problems. At times, dealers were unable to
submit requests for payment and processors were unable to access the system and
process transactions. Further, running management reports on the large database
interfered with system performance. According to NHTSA, unplanned system
outages eventually totaled 80 hours, in addition to extended periods of intermittent

15
     DOT Order 1351.6, CIOP Chapter 1351.6, Certification, Accreditation and Security Assessments (CA) Controls,
     Security Accreditation (CA-6), May 14, 2009.
                                                                                  14


or slow service. NHTSA did not stabilize the system until August 28, 2009—
3 days after NHTSA stopped accepting dealer payment requests.

The IT system NHTSA selected to manage dealer registration and the transaction
database—Oracle’s iSupplier—offered some advantages. According to NHTSA
officials, iSupplier was comparatively low-cost, could be put into production in
30 days, had the capacity to interact with multiple dealers, and could interface
with Delphi—NHTSA’s electronic payment system. In addition, DOT was
already considering using iSupplier to support its acquisition program, thereby
reducing the time and cost of training CARS staff. Despite these advantages,
iSupplier was designed as a payment application and required significant software
and hardware modifications to manage the CARS transaction processing workflow
at multiple processing centers. Further, according to NHTSA officials, their
ability to monitor program activity was limited because the iSupplier standard
queries were unclear.


NHTSA LACKS A COMPREHENSIVE PLAN TO MONITOR
PROGRESS OF REMAINING PROGRAM ACTIVITIES
NHTSA has begun to take action to evaluate program compliance and to
determine total program costs—two activities needed to close out the CARS
program. At the time of our audit, NHTSA did not have a comprehensive plan for
completing these activities. Staff availability to conduct compliance activities has
been particularly problematic. Developing and implementing an action plan that
identifies the level of effort, scope, and timing needed to complete these activities
would help NHTSA close out the program efficiently and better inform the
Secretary of Transportation and Congress of the program’s progress and overall
performance.


Compliance Evaluation Activities Are Under Way
NHTSA has identified more than 2,900 transactions that warrant further
examination. The CARS compliance division has either closed or initiated
examination of approximately 450 (about 15 percent) of these transactions, and
NHTSA personnel are preparing 20 individual cases for civil penalties. By the
end of February 2010, compliance activities had led to $82,000 in returned dealer
payments. According to NHTSA officials, an additional $3.7 million in
voluntarily returned payments could be related to compliance division requests for
dealers to review their transactions. We also forwarded for NHTSA’s review the
unsupported transactions in our sample and three instances where it appeared that
one individual participated in more than one CARS transaction.
                                                                                  15


Our statistical sample indicates that a much larger population of transactions likely
requires further review and possible investigation. We estimate with 95 percent
confidence that 3.3 percent of transactions lacked supporting documentation in the
CARS database at the time of our audit, meaning that almost 22,000 approved
transactions could lack proper evidence. (The precision of the estimate does not
exceed ±1.7 percent of invoices in the universe.)

Of particular concern is the need for NHTSA to expeditiously complete
compliance reviews related to trade-in vehicle disposal. NHTSA is tracking
receipt of the certificates that disposal facilities are required to submit after
receiving trade-in vehicles. NHTSA is also sampling VINs in NMVTIS, visiting
disposal facilities, and speaking with associations and plans to conduct a webinar
to promote program compliance. Once the trade-in vehicles are disposed of,
physical evidence will no longer exist to verify that disposal requirements have
been met. We estimate that most vehicles should be crushed or shredded by July
2010, based on when most dealers received their payments.


Figure 3: Vehicle Crusher at Participating Disposal Facility




Source: OIG




Sufficiently staffing compliance activities has been a problem for NHTSA. To
fulfill immediate tasks in the first 30 days of accepting dealer payment requests,
NHTSA assigned most of its compliance personnel to processing transactions,
answering hotline calls, and conducting training. As a result, NHTSA has a
backlog of compliance work, such as entering data from field reviews and
analyzing the CARS database.
                                                                                                    16


 According to its draft staffing plan, NHTSA intends to staff its CARS compliance
 division with 27 employees. As of March 2010, 19 staff comprised the division—
 9 field investigators and 10 headquarters employees. According to NHTSA
 officials, the agency plans to hire more staff to conduct its remaining compliance
 work. However, an additional 8 compliance employees might not be sufficient
 because NHTSA did not revise its compliance staffing estimate to reflect the
 tripling of CARS funds. Moreover, without gauging the scope and timing of the
 work or identifying the level of resources it can commit, NHTSA cannot
 accurately estimate the resources needed to complete compliance reviews, initiate
 administrative actions to recover payments, and impose civil penalties, when
 appropriate.


 Until Pending Expenses Are Finalized, Total Program Costs Will
 Remain Uncertain
 NHTSA has resolved most dealer requests for payment but does not yet know total
 program costs. NHTSA continues to incur expenses as it completes program
 activities, such as responding to Freedom of Information Act requests, establishing
 program data archives, and determining the award fee related to Citibank’s
 transaction processing contract. 16 NHTSA estimates these contingent costs will
 add more than $9 million to the $81 million already obligated (see table 2). We
 did not assess the accuracy of this estimate.

 Table 2: CARS Administrative Costs
Purpose                                                                     Dollars         Percent of
                                                                                      Obligated Funds
Transaction Processing                                                  $39,681,962            48.75%
Information Technology Services                                         $33,468,612            41.12%
Staffing                                                                 $4,763,913             5.85%
Outreach and Education                                                   $2,986,634             3.67%
Internal Controls                                                         $397,958              0.49%
Space Rental and Infrastructure                                           $100,000              0.12%
Obligated Funds as of February 18, 2010                                 $81,399,079          100.00%
       Pending Costs                                                     $9,100,000
Total with Pending Costs                                                $90,499,079
 Source: NHTSA data




 16
      The contract provides for up to $650,000 in performance awards.
                                                                               17


In addition, NHTSA has not determined or estimated the cost of approximately
100 DOT employees who helped process dealer payment requests over 10 days in
August 2009. The employees charged their employing agencies for the time they
spent processing CARS transactions. NHTSA tracked the employees’ time as
total FTEs each day, but did not track the hours by individual. As a result,
NHTSA cannot calculate the cost to the CARS program using actual salary or
hourly rates. We estimate that the salary and indirect costs for the employees’
time spent processing CARS transactions is about $208,000.


CONCLUSION
Developing and implementing a multi-billion dollar program in a compressed time
frame is a challenging and high-risk task. In just 30 days, NHTSA launched the
CARS program; and in 2 months paid almost $3 billion to dealers and largely
complied with numerous Federal requirements. In meeting this time frame,
however, NHTSA did not adequately assess program risks or test the IT system it
used to manage dealer registration and the transaction database. Ultimately, these
shortcomings resulted in confusion, frustration, and delays. As it closes out the
program, NHTSA will be challenged to address risks associated with completing
compliance reviews, ensuring that trade-in vehicles are accounted for and
destroyed, and determining total program costs. Careful planning would help
minimize these risks.

NHTSA’s experience implementing and closing the CARS program provides a
unique opportunity to inform future, related programs. Efficiently completing
remaining program activities and leveraging lessons learned would provide agency
and other Federal officials and decision makers with valuable information to
assess the CARS program and better prepare for other high-risk programs.


RECOMMENDATIONS
To ensure that NHTSA has the ability to respond to unforeseen challenges in
future vehicle retirement or other programs, we recommend that the National
Highway Traffic Safety Administrator:

1. Leverage CARS lessons learned to develop new program design guidelines
   that incorporate risk mitigation and contingency plans for transaction
   processing, IT systems, and activity monitoring and reporting.

2. Report these guidelines to the Secretary of Transportation and Congress so that
   knowledge gained from the CARS program can inform other agencies facing
   similar challenges.
                                                                              18


To enable taxpayers and decisions makers to determine the CARS’s program
performance and final program cost, we recommend that the National Highway
Traffic Safety Administrator:

3. Finalize and implement an action plan for completing remaining program
   activities, including evaluation of compliance and accounting for all program
   costs.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to NHTSA for review and comment. NHTSA
provided us formal comments and additional technical and informal comments.
NHTSA’s formal comments are included in their entirety as an appendix to this
report. In its formal comments, NHTSA described the actions it took to address
the many challenges in implementing the program under tight deadlines.
NHTSA’s response also describes actions it plans to implement to complete the
program. Our report recognizes the challenging nature of the program and we
welcome the additional insights NHTSA provided in its response.            We
incorporated technical comments into this report, as appropriate.

NHTSA concurred with our recommendations and provided target completion
dates for recommendations 1 and 2. With regard to recommendation 3, NHTSA
provided us with a close-out plan on April 14, 2010. The plan establishes a
schedule to make necessary policy decisions to determine how to close out the
program. NHTSA also identifies certain activities that must be completed before
NHTSA can make those policy decisions, including transaction sampling and pilot
studies to determine the level of effort, time frames, and costs to complete
remaining program activities. Although they provided us with a plan, success will
be in the implementation of close-out actions. We will monitor NHTSA’s
remaining program activities, including pilot studies and policy decisions,
development of a comprehensive close-out plan, and implementation of close-out
actions.

ACTIONS REQUIRED
We consider NHTSA’s planned actions for our recommendations to be reasonable
and resolved, subject to the follow-up provisions in Department of Transportation
Order 8000.1C. When NHTSA completes its pilot studies, we request that
NHTSA provide us target action dates for completing remaining program
activities.
                                                                                 19


We appreciate the courtesies and cooperation of Department and NHTSA
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Gary Middleton, Program Director, at
(202) 366-0625.

                                         #
                                                                                20




EXHIBIT A. SCOPE AND METHODOLOGY
We evaluated NHTSA’s Consumer Assistance to Recycle and Save (CARS)
Program to examine the effectiveness of NHTSA’s controls to ensure that CARS
transactions met Federal requirements; to identify challenges NHTSA faced in
implementing the program; and to assess NHTSA’s progress in completing the
program, including evaluating compliance and accounting for total program costs.
Further, at the request of Senator Charles Grassley, we focused on NHTSA’s
implementation of the program and its ability to ensure program integrity. This
report concludes our audit work to fulfill the congressional requirement for the
Department of Transportation Office of Inspector General (OIG) to review and
report on the administration of the program.

To conduct this audit, we interviewed personnel from NHTSA’s Office of Car
Allowance Rebate System, Office of Enforcement, Office of Policy and
Operations, Office of Planning, Administrative and Financial Management, and
Chief Information Office to determine roles, responsibilities, and direct
involvement in the management and oversight of the CARS program. In addition,
we reviewed relevant laws, regulations, policies, procedures, and planning
documents that established the CARS program, including the authority to operate;
guidance for information technology, acquisition, transaction processing and
approval, data quality, compliance, and administrative costs and quality assurance;
contracts, interagency agreements, and other source selection materials.

We visited the Federal Aviation Administration's (FAA) Enterprise Service Center
to gain an understanding of its role in the CARS transaction payment process. We
met with officials from the American Association of Motor Vehicle
Administrators, Department of Justice, and National Motor Vehicle Title
Information System (NMVTIS) regarding the use of NMVTIS to track VINs and
brand titles of trade-in vehicles for the CARS program.

We visited several processing centers contracted by NHTSA to review dealer
submissions for the CARS program. Locations visited include Citigroup in New
Castle, Delaware and Newark, Delaware; Vangent in Chester, Virginia; Internal
Revenue Service in Austin, Texas; and FAA Enterprise Service Center in
Oklahoma City, Oklahoma. During our visits, we interviewed managers and
employees about processing operations and observed actual transaction reviews.
We also visited Telesis Corporation, which operated the NHTSA CARS hotline in
Beltsville, Maryland.

To project the number and amount of unsupported transactions, we selected a
3-stage probability proportional to size sample from NHTSA’s 673,376 paid or
ready for payment dealer submissions. For stage 1, we randomly selected 10


Exhibit A. Scope and Methodology
                                                                                   21


states with a probability proportional to a state's total invoice amount. The states
selected were California, Georgia, Illinois, Indiana, Kansas, New Jersey, North
Carolina, Ohio, Pennsylvania, and Texas. For stage 2, we randomly selected 4
dealerships with a probability proportional to a dealership's total invoice amount
from each of the 10 states. Finally, for stage 3, we selected a simple random
sample of 10 invoices from each of the 40 dealerships. One dealership had only
four invoices, and one invoice was deleted from the sample. Selections were also
made with replacement, meaning a state or dealership could have been selected
more than once, which happened in Texas; one dealership was selected twice and
two invoices were selected twice, resulting in an actual sample size of 39
dealerships and 391 unique invoices. Payment for these transactions was from
funds appropriated for the CARS program to operate from July 1, 2009, through
November 1, 2009.

We conducted site visits at each of the 39 dealerships and verified the eligibility of
the randomly sampled dealer submissions that were approved for payment by
NHTSA. Sampled items were extracted from the CARS information technology
system and tested against original dealer records kept onsite at each dealership and
against transaction eligibility requirements. We also verified the CARS database
information against records kept onsite at selected disposal facilities. We used
OIG-generated checklists and scanners to record evidence obtained from original
dealership and disposal facility records. We interviewed auto dealer and disposal
facility personnel to get an understanding of the process used for their
participation in the CARS program, and to examine inconsistencies in auto dealer
and disposal facility records for CARS transactions. We also assessed the random
sample to identify errors in the transaction data and to detect noncompliance with
program requirements.

Of the 22 disposal facilities we visited, 18 were randomly selected based on the
transactions in our sample. The sample of disposal facilities is too small to project
over the universe of transactions. However, it is an unbiased sample that provides
insights into the disposal phase of the program and indicators of program
performance and controls. The other four facilities include one near Washington,
D.C., and three others that we visited at the start of our audit to test our
methodology.

We obtained assistance from the OIG senior statistician in developing the
sampling methodology, selecting the sample, and projecting the sample results.

We consulted with the OIG Office of Legal, Legislative, and External Affairs on
legal and congressional issues related to the CARS program. We also coordinated
with the OIG Office of Investigations Desk Officer on investigative issues and
with the Director of the OIG Complaint Center to identify and acquire information
on any current or recently completed investigations, including hotline complaints.


Exhibit A. Scope and Methodology
                                                                               22


We provided the Office of Investigations with transactions that appeared to be
questionable, based on the requirements of the program, for further review by the
OIG Investigations and NHTSA’s Office of Enforcement.

We met with GAO to share relevant audit information, to avoid duplication of
effort and to coordinate audit milestones in response to the congressional request
for both agencies to audit the CARS program.

Our audit was conducted from September 2009 through March 2010. We
conducted this performance audit in accordance with generally accepted
government auditing standards as prescribed by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Exhibit A. Scope and Methodology
                                                                                                 23




EXHIBIT B. CARS ELIGIBILITY REQUIREMENTS FOR TRADE-IN
AND NEW VEHICLES
To meet program eligibility requirements, trade-in vehicles had to:

1. Be in drivable condition;
2. Have been continuously insured, in accordance with state law, and registered
   in the same owner’s name for the 1 year prior to the trade-in;
3. Have been manufactured not earlier than 25 years before the date of trade-in,
   and, in the case of a category 3 vehicle, also be not later than model year 2001;
   and
4. Have a combined fuel economy of 18 miles per gallon or less for a passenger
   automobile, category 1 truck, or category 2 truck.
To be eligible to participate in the program, new vehicles had to be a passenger
vehicle, a category 1 truck (e.g., sport utility vehicle), a category 2 truck
(e.g., larger light duty pickup truck), or a category 3 truck (e.g., medium-duty
pickup truck).


Table 3: CARS Eligibility and Incentives
             New Vehicle                 Trade-in Vehicle      MPG Improvement         Incentive
      Type           Combined                Type **
                        MPG*
                                        Passenger Car                 4 to 9            $3,500
Passenger Car           at least 22     Category 1 Truck              4 to 9            $3,500
                                        Category 2 Truck           10 or more           $4,500
                                        Passenger Car                 2 to 4            $3,500
Category 1 Truck        at least 18     Category 1 Truck              2 to 4            $3,500
                                        Category 2 Truck            5 or more           $4,500
                                        Category 2 Truck                1               $3,500
Category 2 Truck        at least 15     Category 2 Truck            2 or more           $4,500
                                        Category 3 Truck          not applicable        $3,500
                                                                Similar in size or
Category 3 Truck      not applicable    Category 3 Truck ***                            $3,500
                                                               smaller than trade-in
*   MPG—Miles per gallon of gasoline.
** Combined MPG less than 18.
*** Model year 2001 or older.
Source: NHTSA




Exhibit B. C ARS El igibilit y Requirements for Trade-in and New
Vehicles
                                                                                                      24




EXHIBIT C. PROGRAM CONTROLS REVIEWED BY OIG FOR
SELECTED ELIGIBILITY REQUIREMENTS
During our visits to 39 auto dealerships, we verified the original documents that
dealer locations submitted to NHTSA to support their requests for payment. We
compared original documents for CARS transactions from dealer files with
electronic records that dealerships provided to NHTSA’s iSupplier system.
Relying on NHTSA guidance and the checklist used by CARS transaction
processors, we analyzed the following items to validate the eligibility of the 393
CARS transactions selected in our statistical sample.

Table 4: Selected Eligibility Requirements and Program
Controls

Eligibility                    Work OIG Auditors Performed                        Program Control
Requirement
Front of the       Auditors compared the name, address, signature, and Prevent titling and
Trade-in Vehicle   VIN on the original title with title information in iSupplier resale of trade-in
Title              and performed a full 17-digit VIN check. Auditors also vehicle.
                   confirmed whether the titles had “Junk cars.gov” or
                   variations, such as “cash for clunkers” written on them.
Back of the        Auditors assessed whether “Junkcars.gov” or a                Prevent titling and
Trade-in Vehicle   variation such as “Cash for Clunkers” was written on         resale of trade-in
Title              the backs of the titles.                                     vehicle.
Current Trade-in   Auditors verified proof of current registration by           Ensure trade-in
Vehicle            examining the type of proof provided (e.g., registration     vehicle was in use
Registration       card, Carfax report). The name, date of registration,        prior to program and
                   and VIN number were compared with iSupplier                  was owned by the
                   information to confirm proof of current registration prior   consumer.
                   to sale. OIG auditors performed a full 17-digit VIN
                   check. NHTSA transaction processors checked the
                   last six digits.
Proof of           Auditors validated continuous 1-year proof of insurance Ensure trade-in
Insurance for      (e.g. insurance card, letter from insurance company) for vehicle was in use
Trade-in           the year prior to the sales date. Auditors reviewed      prior to program.
                   proof of insurance documents to compare name, make,
                   model, year of trade-in, VIN, and dates of coverage
                   with iSupplier information. A gap in insurance of 10
                   days or less was acceptable. OIG auditors performed
                   a full 17-digit VIN check. NHTSA transaction
                   processors checked the last six digits.




Exhibit C. Pr ogram Controls Review ed by OIG for Select ed Eligibilit y
Requirements
                                                                                                25


Eligibility                   Work OIG Auditors Performed                       Program Control
Requirement
Purchaser         Auditors confirmed the identification (ID) of purchasers    Track the participants
Identification    who participated in the CARS program by comparing           in the program, verify
                  the original ID (e.g., state issued driver’s license) and   they are the owners of
                  title information with the ID and title information in      the trade-in vehicle
                  iSupplier. We examined the name, address, and ID            and purchaser of the
                  number of identification documents. In the case of co-      new vehicle, ensure
                  purchasers, we examined co-purchaser name,                  they only participate
                  address, and ID number, and in the case of                  in the program once.
                  businesses, we examined the identification and/or
                  other pertinent documentation.
Manufacturer’s    Auditors matched the VIN, make, model, year,                Provides NHTSA with
Certificate of    purchaser name, and address on the manufacturer’s           details of the
Origin (MCO)      certificate of origin (MCO) for the new vehicle with the    purchased vehicle.
                  MCO in iSupplier. OIG auditors performed a full 17-
                  digit VIN check. NHTSA processors also checked all
                  17 digits of the VIN for many transactions. For
                  Michigan and California, an application for title or
                  invoice could be submitted in lieu of an MCO.
                  Purchase orders from the manufacturer were
                  acceptable substitutes for MCOs for vehicles that had
                  not been manufactured by the sales date.
NHTSA Summary Auditors verified the purchaser name and signature,             Provides certification
of Sale or Lease dealer signature, dealership sales sheet, voucher            that the dealer and
                 amount, manufacturer’s suggested retail price below          consumer have
                 $45,000, the trade-in make, model and year, trade-in         participated in the
                 VIN, and new vehicle VIN on the NHTSA Summary of             program and
                 Sale/Lease with iSupplier Sale/Lease documents.              documents their
                 Auditors reviewed co-purchaser information where             understanding of
                 applicable.                                                  penalties for violating
                                                                              Federal requirements.
Fuel Economy      Auditors validated the correct CARS incentive amount,       Provides
Comparison        the trade-in vehicle make, model, year and description,     documentation that
                  the new vehicle make, model year and description and        the trade-in and new
                  the fuel economy side-by-side comparison date with          vehicle meet the
                  iSupplier to ensure that the transaction met the miles      requirements of the
                  per gallon standard based on information provided by        program and
                  the Environmental Protection Agency at                      documents the
                  fuel.economy.gov.                                           incentive amount.




Exhibit C. Pr ogram Controls Review ed by OIG for Select ed Eligibilit y
Requirements
                                                                                                                       26




EXHIBIT D. SELECTED DEALER VIEWS ABOUT CARS
To obtain dealer views about the program, we interviewed personnel onsite at the
39 dealerships in our statistical sample. The majority of dealerships stated that
they were able to register for the program in a timely manner. However, a
majority of dealers reported that they had difficulty obtaining supporting
documentation from the consumers. About half of the dealers commented that
they were able to determine which NHTSA payments they received were for
which vehicle sales and why NHTSA rejected some requests for payments.
Further, about half of the dealers had problems with the trade-in vehicle disposal
process. All 39 dealerships told us they would participate in the program again.
Table 5 summarizes the dealerships’ responses to our questions.

Table 5. Dealer Responses During OIG Site Visits*

Question                                                                                               Yes     No
Did the dealership understand the program requirements at the
                                                                                                         7     28
beginning of the program (July 24, 2009)?
Did the registration process enable the dealership’s timely participation
                                                                                                        34         4
in the program?
Did the dealership participate in a NHTSA webinar?                                                      18     21
Did the dealership have difficulty registering its bank
                                                                                                         7     32
account information?
Did the dealership have difficulty changing its bank
                                                                                                         3     34
account information?
Did the dealership have difficulty obtaining supporting
                                                                                                        34         4
documentation from the consumers?
Did the dealership understand why NHTSA rejected some requests for
                                                                                                        19     19
payment?
Could the dealership determine which NHTSA payments were for
                                                                                                        20     18
which vehicle sales?
Did the dealership encounter problems with the trade-in vehicle
                                                                                                        20     19
disposal process?
Did the dealership require consumers to sign contingency agreements
                                                                                                         8     30
in case NHTSA did not approve the request for payment?
Did the dealership retain the new vehicle until NHTSA paid the CARS
                                                                                                         2     34
amount?
Did the dealership disable any trade-in vehicles' engines
                                                                                                         1     32
for transactions that were later found to be ineligible?
Would the dealership participate in this program again?                                                 39         0
* Some questions have fewer than 39 responses because some dealerships did not offer opinions for all questions.
Source: OIG




Exhibit D. Sel ected Dealer Vi ew s about C ARS
                                                                              27




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                        Title

  Gary Middleton                              Lead Program Director

  Kerry Barras                                Program Director

  Krystal L. Patrick                          Lead Project Manager

  Joann K. Adam                               Project Manager

  Darrell Riegel                              Project Manager

  Patrick D. Conley                           Senior Auditor

  Maria (Lynn) Dowds                          Senior Auditor

  Tim Roberts                                 Senior Auditor

  Maurice Toval                               Senior Auditor

  Stephen M. Berkeridge                       Auditor

  Brian Chapman                               Program Analyst

  Carlton H. Hamilton                         Auditor

  Susan Todd                                  Program Analyst

  Petra Swartzlander                          Senior Statistician



  Special thanks goes to Heather Albert, Special Investigations and Analysis, and
  William Owens, National Investigative Programs and Operations, and their
  teams for their support on matters related to investigations and hotline
  complaints.




Exhibit E. Major Contributors to this Report
           APPENDIX. AGENCY COMMENTS
                                                                                                             28



                                                                 Memorandum
           U.S. Department of
           Transportation
           National Highway Traffic
           Safety Administration

           INFORMATION: Response to Office of Inspector General
           (OIG) Draft Report, “Consumer Assistance to Recycle and
Subject:   Save (CARS) Program: Most Transactions Met Federal                 Date:    April 22, 2010
           Program Requirements, But Program Completion Activities
           Continue.”

  From:
           David L. Strickland                                             Reply to
                                                                           Attn. of:
           Administrator

    To:    Calvin L. Scovel III
           Inspector General

           The CARS program implementation by the National Highway Traffic Safety Administration
           (NHTSA) was a remarkable success story and an example of exemplary service provided by
           the Federal Government to the American people in times of crisis. NHTSA staff and
           management, with assistance from the Office of the Secretary of Transportation (OST) and
           elsewhere in the executive branch, accomplished what had heretofore been impossible –
           implementing a complex subsidy program, complete with regulatory requirements, systems
           and strong internal controls, in 30 days. Within 30 days of the CARS Act enactment,
           NHTSA issued final rules for the program and automobile dealers were able to begin
           submitting transactions for approval 4 days later. Given the economic uncertainty during this
           period, the agency was unsure of public response to the program. We quickly realized the
           public response exceeded all expectations, outstripping the initial tranche of funding in about
           a week, and the subsequent $2 billion within less than 30 days.
           The program was highly successful in accomplishing its primary goals of stimulating the
           economy and aiding the environment. Additional detailed information on program
           implementation and accomplishments is available in NHTSA’s report to Congress,
           “Consumer Assistance to Recycle and Save Act of 2009,” available online at
           http://www.cars.gov/files/official-information/CARS-Report-to-Congress.pdf . With over
           18,908 dealers participating in the program throughout the Nation and its territories, 690,114
           voucher applications were filed, and reviewed by NHTSA’s multi-tiered system of internal
           controls, to ensure the transactions were legitimate, appropriate, and in compliance with
           statutory and regulatory requirements. NHTSA denied or dealers retracted 12,272
           applications. Ultimately, NHTSA approved 677,842 transactions valued at $2.85 billion.
           We estimate that this resulted in a $3.8 to $6.8 billion increase in GDP and over 60,000 jobs
           created or saved. The new vehicles obtained under this program were 58 percent more fuel




             Appendix. Agency Comments
2                                                                                                             29

efficient than the vehicles they replaced, with an average combined EPA rating of 24.9 miles
per gallon (MPG), versus 15.8 MPG for the vehicles they replaced, reducing fuel
consumption by 33 million gallons per year with concomitant reductions in green house
gases and other pollutants.
NHTSA Implemented Strong, Multi-tiered Transaction Approval Controls to Ensure
Compliance
NHTSA developed a formidable system of transaction controls with multiple levels of review
to ensure that transaction applications were complete, legitimate, and in compliance with
applicable requirements. The agency carefully trained the reviewers to ensure that their
actions would be complete, thorough, and accurate. Upon completion of the program,
NHTSA immediately conducted an internal audit of 1,200 transactions that initially found
97.5 percent of transactions were fully supported at the time of approval, and that
documentation was available to fully support 99.96 percent of the transactions approved. 1
This is an impressive accomplishment by any measure, but particularly when one considers
the 30 day timeframe for program development and implementation.
The OIG report demonstrates a similar success rate for transaction approval. While the
OIG’s analysis is based on a smaller sample of 393 approved transactions, OIG found that 97
percent of transactions were accompanied with complete documentation demonstrating
compliance with program requirements. For the 13 transactions that OIG did not identify
complete documentation in the files at the time of its review, OIG referred those files to
NHTSA for subsequent review.
Based on NHTSA’s review of these files, it determined that all 13 of the questioned
transactions are fully supported by available documentation. This includes three files that
NHTSA determined OIG, using its review criteria, could have determined were fully
documented. 2 As for the remaining 10 files, NHTSA’s subsequent detailed review
determined the transactions were acceptable; however, the files lacked sufficient
documentation at the time of OIG’s review. NHTSA has now supplemented those files with
the documentation that had been missing. In total, NHTSA determined that 100 percent of
the transactions in OIG’s sample were fully supported and appropriate.

Economic and Customer Response Uncertainty Complicated Planning
The dire economic conditions at the time of the CARS statute was signed made it difficult to
anticipate consumer response. Because of the serious economic downturn prior to CARS
implementation, there were concerns about being able to obtain sufficient participation in the
program and NHTSA had contingency plans available to draw attention to the program in an
1
    A summary of NHTSA’s audit and other program details can be found in its report to Congress cited earlier.
2
  The OIG auditors limited their review to the NHTSA checklist and did not consider other training aids
developed to educate reviewers on alternate forms of supporting documentation. Two of the transactions
contained an alternative for the MCO/MSO for vehicles that were not in inventory at the time of sale. One
transaction contained proof of registration in the form of a vehicle history report and title with an issue date
at least one year prior to the date of sale.




Appendix.             Agency Comments
3                                                                                  30

effort to increase participation. Congress shared these concerns as indicated by the CARS
Act provision calling for a public awareness campaign to attract buyers. Further, NHTSA
consulted knowledgeable industry sources prior to the program’s launch that also were
unable to foresee the overwhelming response, further validating programmatic assumptions.
In retrospect, the opposite occurred, and the program drew unprecedented levels of
participation. During the program’s first 7 days, dealers entered more than 100,000
transactions into the system, and on 1 day alone, entered as many as 42,000 transactions. As
a result, OIG’s conclusion that NHTSA made incorrect assumptions in planning program
staffing and systems does not fully accommodate the context of uncertainty surrounding the
public response. Although those assumptions proved inaccurate, the data on which to base
better assumptions were not apparent. The strength in NHTSA’s implementation was not
only the advance planning, but also careful monitoring of near real time program conditions,
its flexibility in implementing alternative approaches, and its unrelenting determination to
achieve excellence in completing the program.

NHTSA Quickly Ramped up Program Resources and Proved Resilient Addressing
Program Demand Surge
While no logical programmatic assumptions indicated that the program would exhaust $1
billion in funding in a week, and $3 billion in under a month, NHTSA responded quickly and
effectively to the high volume response. With regard to staffing, NHTSA’s actions proved
both thoughtful and creative. By identifying an initial contractor accustomed to contending
with high volumes of transactions, NHTSA thought it would be well equipped to handle
program transactions. However, the level of transactions quickly proved overwhelming and
NHTSA obtained additional assistance from staff elsewhere in DOT as well as resources
from the Internal Revenue Service and additional contractors. In this way it was able to
rapidly increase the number of people processing transaction applications to a maximum that
exceeded 7,000 by early September 2009. It should be noted that equally important, to
minimize program costs, that peak was short lived, as NHTSA constantly monitored
workload, and very quickly shed workforce, maintaining only what was needed to process
the remaining transactions.
Information technology resources dedicated to the program were also subject to the strain of
the unprecedented demand for participation in the program. Under the direction of the DOT
Office of the Chief Information Officer (OCIO), NHTSA was granted a conditional authority
to operate the CARS IT System. This authority allowed for production deployment within
the timeframe to meet the 30 day legislative mandate. This authority also required NHTSA
to complete certification and accreditation within 60 days. The review and subsequent
accreditation was successfully completed within the required timeframe. It should be noted
that the CARS system authority was not an interim authority to operate (IATO) the CARS
system. A conditional authority to operate is referred to within National Institute of Stands
and Technology guidance and is part of the U.S. Department of Transportation policy; as
such DOT does recognize such authority for system implementation.




 Appendix.       Agency Comments
4                                                                                   31

While OIG is correct that the dedicated processing capability was quickly overwhelmed by
the surge in demand, NHTSA weathered the storm by providing innovative, cutting edge
approaches, that could be quickly implemented while providing the protections necessary for
personally identifiable information (PII) and from outside attacks on system resources.
Furthermore, NHTSA was careful to ensure appropriate protection of PII, consistent with
Federal and Departmental requirements. These security requirements were embodied in an
infrastructure-related contractual agreement with the primary IT contractor for the program,
and a related interconnection security agreement. Due to the extraordinary nature of the
program, NHTSA had to complete systems development within incredibly tight time
constraints; however, it completed functional, systems and user acceptance testing, and
additional security testing including secure access control in advance of system deployment.
While it would have been useful to perform more robust stress testing, it was not possible
due to the extremely tight deadlines established by the statute.
Throughout the program NHTSA worked with dealers to provide training and information on
how to submit proper claims. Because there were only 4 days between the issuance of the
final rule and program implementation, there was not time to do much advance training. As
the program was implemented, NHTSA focused on providing frequent updates to its website
and a series of webinars that provided detailed instructions for completing the vouchers.
NHTSA conducted 10 dealer webinars beginning on the first day of the program reaching
thousands of automobile dealers. NHTSA also worked extensively with vehicle dealers
calling its hotline and a special helpdesk. The combination of rapidly increasing staff,
training, IT resources, and improving dealer training enabled NHTSA to complete review of
99 percent of dealer submissions by late September, handling three times as many
transactions as initially planned. In all, the average time from receipt of a fully documented
voucher to payment was just over 2 weeks.

NHTSA Protected Sensitive Financial Information
The OIG report questions NHTSA’s adherence to Federal security procedures governing
updates and corrections to dealer bank account information. OIG staff recently provided the
specific procedures it believes were not followed. My staff reviewed these procedures and
has forwarded its technical comments directly to your program director. As indicated in our
comments, NHTSA believes that its safeguards accomplished the requirements of the
procedures cited by OIG and effectively controlled any risk of unauthorized access or
interception of sensitive financial information.

NHTSA Implementing Robust Vehicle Disposal Controls
While the primary focus of NHTSA’s initial activities was necessarily on the front end
program transactions, NHTSA has transitioned its focus to ensuring that vehicles are
disposed of in compliance with program requirements. NHTSA is conducting outreach and
program compliance activities intended to ensure that CARS trade-in vehicles are disposed of
in a manner in full compliance with program requirements. We appreciate the OIG’s
recognition of the value of making CARS trade-in VINs available to commercial vehicle
history report providers. It should be noted that, in addition to consumers, State motor



Appendix.        Agency Comments
5                                                                                     32

vehicle administrations make use of these services, further reducing the risk of fraud.
NHTSA has also developed computer software to identify CARS trade-in VINs for which we
have not received a properly completed disposal form and/or National Motor Vehicle Title
Information System (NMVTIS) entry. This tool will be leveraged to develop the sample
populations in our close-out plan. To reduce risk and increase visibility into potential
exportation of CARS trade-in vehicles, NHTSA partnered with Customs & Border Patrol
(CBP) and the National Insurance Crime Bureau (NICB) whose monitoring of vehicle
exports has already proven to be effective.

NHTSA Has Completed a Program Close-Out Plan
NHTSA has completed a program close-out plan that lays out the continuing challenges and
choices NHTSA faces in completing program activities. While we recognize that the plan
was completed too recently to be included in the OIG report, the plan provides a
comprehensive approach for identifying and addressing remaining programmatic issues. The
plan highlights NHTSA’s approach to key aspects of the program including data integrity,
interim and ultimate disposition of data gathered during the program, actions to ensure
compliance for initial transactions as well as ultimate vehicle disposal, final resource needs,
and civil and criminal implications for any potential enforcement actions.
NHTSA’s close-out compliance activities include pilot samplings of suspect transactions
identified through data analysis and of trade-in vehicles for which disposal forms or
NMVTIS entries are missing. By the end of FY2010, NHTSA expects to have made all of
the decisions necessary to determine exactly how the CARS program will be closed out. At
that time, NHTSA will make any necessary organizational changes to effectuate the final
tasks.


Recommendations and Response
Recommendation 1: Leverage CARS lessons learned to develop new program design
guidelines that incorporate risk mitigation and contingency plans for transaction processing,
IT systems, and activity monitoring and reporting.

Response: Concur. In December 2009, NHTSA completed and reported to the Congress on
the results of the CARS program. This effort was useful to begin collecting information on
lessons learned. As NHTSA continues to conduct program closeout activities, it is collecting
and compiling feedback from key program participants in the Department, industry, systems
developers, transaction reviewers, automobile dealers and other stakeholders. It is important
to recognize that the circumstances surrounding the implementation of the CARS program
were unique and it is not clear the extent to which many lessons learned from the program
may enjoy more general applicability in the form of new program design guidelines.
Nonetheless, NHTSA anticipates that there is substantial useful information that can be
garnered by compiling and analyzing lessons learned from the program and anticipates
completing this effort by June 2011.



Appendix.        Agency Comments
6                                                                                     33

Recommendation 2: Report these guidelines to the Secretary of Transportation and
Congress so that knowledge gained from the CARS program can inform other agencies
facing similar challenges.

Response: Concur. As indicated in response to recommendation 1, NHTSA will compile
information on lessons learned from the program, and analyze the information to assess its
potential for more general applicability. NHTSA will report its results to the Secretary by
June 2011.

Recommendation 3: Finalize and implement an action plan for completing remaining
program activities, including evaluation of compliance and accounting for all program costs.

Response: Concur. On April 14, 2010, NHTSA issued an action plan for the CARS
program. NHTSA is implementing the plan and, in accordance with the plan, anticipates
making the decisions necessary to determine specifically how and when the program will be
closed out by September 30, 2010.

                                           * * *

In summary, we are pleased that the CARS program achieved the objectives set out by
Congress to increase automotive sales and aid the environment. In just a few short weeks of
sales, nearly 680,000 older vehicles were replaced by new, more fuel-efficient vehicles. The
Nation’s economy benefited immediately from this stimulus program, which caused a
distinct upward movement in GDP and created or saved tens of thousands of jobs at a very
critical time in the recovery process. Because of the unanticipated strength of consumer
response, the program led to a sharp decline in dealer inventories and caused several major
automakers to increase production schedules through the end of 2009, leading to an increase
in employment and GDP in the fourth quarter as well. The environment will benefit over the
longer term because operation of the new vehicles in place of the trade-ins will reduce oil
consumption and emissions of carbon dioxide and related greenhouse gases over the next 25
years.

We greatly appreciate the courtesy shown by OIG audit staff and the full cooperation of the
OIG investigations staff in webinars and training for dealers and disposal entities. Please
contact Daniel C. Smith, Associate Administrator for Enforcement, if there are any questions
or if we may be of further assistance.




    Appendix. Agency Comments
